U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                               Review of the
                            Drug Enforcement
                        Administration’s Custodial
                        Accountability for Evidence
                         Held at the Field Divisions
                              Report Number I-2004-003




                                      January 2004
                              EXECUTIVE DIGEST


       The Drug Enforcement Administration (DEA) often seizes or takes
custody of evidence while enforcing federal laws and regulations for
controlled substances. In 1999, the General Accounting Office (GAO)
identified weaknesses in the DEA’s accountability over drug evidence that
could increase the potential for theft, misuse, or loss, thus compromising
the evidence for federal prosecution.1 In 2001, the DEA Administrator
directed the DEA Office of Inspections (Office of Inspections) to review
custodial accountability for five categories of evidence.2 After reviewing
internal inspections conducted at all 21 DEA domestic field divisions from
1999 through 2000, the Office of Inspections concluded in its report entitled
Review of Custodial Accountability for: Drug Evidence, Non-Drug Evidence,
Seized Monies, Recovered Monies, and Technical Equipment, February 2001,
that DEA’s problems with custodial accountability remained unresolved.

       The Office of the Inspector General (OIG) evaluated the DEA’s progress
in correcting custodial accountability problems identified in the DEA Office
of Inspections’ report. We found that more than two years after this review
was released, and four years after the GAO determined that the DEA needed
to strengthen accountability for drug evidence, the DEA still had not
corrected deficiencies identified by DEA’s internal inspections, including
implementing program guidance, improving Headquarters support, or
developing training. Consequently, some DEA field division staff continue to
handle and store evidence improperly.3 According to our survey of Assistant
United States Attorneys (AUSAs), DEA’s recurring problems with custodial
accountability have not yet adversely impacted federal prosecutions.
However, our review of DEA’s internal investigations of employee
misconduct between June 2001 and September 2002 disclosed several
instances of evidence loss.




       1GAO, Seized Drugs and Weapons: DEA Needs to Improve Certain Physical
Safeguard and Strengthen Accountability, AIMD-00-17, November 1999.

       2 Custodial accountability is defined as accounting for evidence completely,

accurately, and promptly to help ensure that evidence is not compromised for federal
prosecutions and that it is protected against theft, misuse, or loss.
       3
         We focused on seized drugs and monies because their value increases the risk of
theft, misuse, and loss.

U.S. Department of Justice                                                             i
Office of the Inspector General
Evaluation and Inspections Division
RESULTS IN BRIEF

       The DEA Has Failed to Correct the Deficiencies Identified as
Contributing to Custodial Accountability Problems at the DEA Field
Divisions. In 2001, the DEA Administrator directed the Office of
Inspections to review five evidence program areas because custodial
accountability problems continued to be reported during internal
inspections. The Office of Inspections’ review identified the following
problems. The DEA did not have enough non-agent Evidence Custodians
and was routinely using Special Agents to perform almost all of DEA’s
custodial duties.4 Special Agents’ collateral evidence duties became the
primary duty assignment in ten offices along the Southwest Border.
Evidence Custodians needed clearer guidance and were uncertain about
their responsibilities for maintaining logbooks, the DEA had no central
point-of-contact for uniform evidence guidance, and Evidence Custodians
lacked formal training.

      The Office of Inspections issued six recommendations to resolve these
recurring problems including conducting two workload studies, creating an
Evidence Custodian Handbook, obtaining pre-printed logbooks, identifying a
single headquarters point-of-contact to respond to inquiries regarding
evidence, and developing comprehensive training for Evidence Custodians.
In June 2001, the DEA Administrator approved the recommendations. We
evaluated the DEA’s implementation of the six recommendations and found
that the DEA has implemented two, but has not implemented the remaining
four. The DEA conducted two workload studies and hired more Evidence
Custodians, but it still has not produced an Evidence Custodian Handbook,
required the field to use pre-printed logbooks, identified a single point-of-
contact that is an expert on evidence, or developed a comprehensive training
program for Evidence Custodians.

       When we asked why the DEA did not implement four of the six
recommendations, an Office of Inspections official stated that the DEA
distributed the report to its Executive staff, but it was never distributed to
the appropriate offices for action. According to the official, the DEA
Administrator who had requested the review left the agency shortly after
approving the final report and recommendations, and new DEA
management did not ensure that the recommendations were implemented.
When we contacted officials from the two offices responsible for
implementing the recommendations, the Office of Operations Management

       4 We use the term Evidence Custodian to include all DEA field division staff

assigned evidence custodial duties in a full or part-time capacity.



U.S. Department of Justice                                                            ii
Office of the Inspector General
Evaluation and Inspections Division
(OM) and the Office of Training (TR), they told us that they were unaware of
the Office of Inspections’ report, and their responsibility for implementing
specific recommendations.

     Below are the Office of Inspections’ recommendations approved in
June 2001 and their current implementation status.

       •   DEA Recommendation 1 – conduct a workload analysis that
           specifically addresses the evidence workloads for division office
           Evidence Custodians and the collateral duties of the Special
           Agents.

           Status: In fiscal year (FY) 2003, the DEA fulfilled this
           recommendation by analyzing the overall workload for Special
           Agents. The DEA requested 85 new administrative support
           positions in its FY 2004 budget request to improve the use of its
           Special Agent resources.

       •   DEA Recommendation 2 – conduct a workload/staffing analysis
           that specifically addresses the manpower issues and the need for
           full-time Evidence Custodians for handling bulk marijuana along
           the Southwest Border.

           Status: In November 2001, the DEA completed its Southwest Border
           workload analysis and, as a result, began hiring additional
           full-time non-agent Evidence Custodians for the Southwest Border.
           In FY 2000, the DEA had 33 full-time non-agent Evidence
           Custodians and now has 39 full-time non-agent Evidence
           Custodians, 14 of whom are assigned to Southwest Border field
           divisions.

       •   DEA Recommendation 3 – create an Evidence Custodian
           Handbook with a comprehensive set of policies and standard
           operating procedures that ensure uniformity and assist Evidence
           Custodians with ensuring proper accountability.

           Status: The DEA plans to update evidence handling sections of the
           Special Agents Manual in FY 2004, but has no plans to develop a
           separate Evidence Custodian Handbook.

       •   DEA Recommendation 4 – obtain and use pre-printed logbooks for
           all field division offices to ensure standardization, proper evidence
           accountability, and compliance with audit requirements.


U.S. Department of Justice                                                     iii
Office of the Inspector General
Evaluation and Inspections Division
           Status: Not all field divisions obtained and use pre-printed
           logbooks. For example, in the DEA San Diego Field Division, only
           one of four Evidence Custodians had a pre-printed logbook. The
           use of pre-printed logbooks by Evidence Custodians is not uniform
           because it is not required.

       •   DEA Recommendation 5 – identify a single point-of-contact (expert)
           at DEA Headquarters to respond to inquiries regarding evidence.

           Status: OM designated itself as the point-of-contact for inquiries
           regarding evidence and we found that most Evidence Custodians
           know that they can contact OM with questions. However, Evidence
           Custodians seek assistance from other Evidence Custodians
           because they have experience and expertise that OM does not have
           for interpreting guidance in the Special Agents Manual.

       •   DEA Recommendation 6 – develop a comprehensive, formal
           training program for personnel assigned custodial duties, and
           require attendance within three months of assignment.

           Status: The DEA did not develop a comprehensive training program
           for personnel assigned custodial duties. In fact, the only formal
           training available to Evidence Custodians is on how to input
           evidence data in the DEA’s Enhanced Non-Drug Evidence Data
           System (ENEDS).5

       Custodial Accountability Problems Persist at the DEA Field
Divisions. We examined 13 internal inspection reports issued from June
2001 through January 2003 and found recurring and unresolved custodial
accountability problems similar to those identified by the GAO in 1999 and
by the Office of Inspections in 2001. These problems persist in field divisions
despite mandatory annual reviews of the evidence program using Office of
Inspections’ checklists, despite certification that evidence program
deficiencies were corrected, and despite the use of ENEDS. Eight of 13 field
divisions (62 percent) were cited for infractions involving drug evidence,
including improperly processed exhibits; improperly maintained logbooks;
       5 The DEA developed the Non-Drug Evidence Database System (NEDS) in the early

1990s and replaced it with the Enhanced Non-Drug Evidence Database System (ENEDS) in
1999. Non-Drug Evidence Custodians use ENEDS to track non-drug evidence, bulk drugs,
and seized and recovered monies checked in or out of the vault. Non-Drug Evidence
Custodians also use ENEDS to facilitate the annual inventory of evidence within the vault
and generate a variety of reports. As of January 1, 2003, ENEDS was available at 158
sites.



U.S. Department of Justice                                                          iv
Office of the Inspector General
Evaluation and Inspections Division
discrepancies in the seizure, submission, and reporting of drug and non-drug
evidence; improper temporary storage; and no annual inventory or failure to
reconcile inventory discrepancies. Three of the 13 field divisions
(23 percent) were cited for infractions related to improper processing of seized
monies, including non-DEA employees serving as custodians, improperly
maintained logbooks, improper storage, or failure in conducting required
audits.

       In 1999, the GAO cautioned that DEA’s weaknesses in the
accountability over evidence could increase the potential for theft, misuse,
or loss of such evidence, and could compromise federal prosecutions. The
DEA responded to GAO by saying that the DEA has redundant controls in
place to ensure that the integrity of evidence is maintained at all times and
that shortcomings in one control will not result in an accountability
problem.

      To determine the validity of DEA’s assertions and verify that DEA’s
recurring custodial accountability problems have not compromised evidence
to be used in federal prosecutions, we surveyed 422 AUSAs responsible for
prosecuting federal drug and asset forfeiture cases. All who responded
reported that they believed that the DEA safeguards the integrity of seized
drugs and monies, and none reported a federal prosecution adversely
impacted by DEA’s custodial accountability problems. However, when we
reviewed DEA’s internal investigations regarding the loss or theft of
evidence, we found that since June 2001 the DEA imposed discipline in five
cases involving accountability deficiencies that led to the loss of seized
drugs or monies.

        Office of Inspections’ Recommendations for Guidance and
Training Remain Valid. Because two years have passed since the DEA
Administrator approved the Office of Inspections’ recommendations, we
evaluated whether the DEA should implement the remaining four
recommendations. We concluded that the original recommendations are
still valid. First, the DEA should ensure that all Evidence Custodians have
pre-printed logbooks because the Office of Inspections continues to find
problems with logbooks during field inspections. Using pre-printed
logbooks would help resolve some of the problems identified by the Office of
Inspections by ensuring that all Evidence Custodians use the same data
fields to track evidence in their custody. Second, the DEA should appoint
an expert point-of-contact for evidence issues. Evidence Custodians seek
assistance from other Evidence Custodians because they have experience
and expertise that OM does not have for interpreting guidance in the Special
Agents Manual. As a consequence, Evidence Custodians receive guidance


U.S. Department of Justice                                                  v
Office of the Inspector General
Evaluation and Inspections Division
from other Evidence Custodians that may or may not be correct, and DEA
Headquarters does not have the opportunity to provide uniform guidance,
track questions, and identify common trends to improve DEA evidence
handling policies.

      Third, the DEA should develop a handbook for Evidence Custodians
because the Special Agents Manual does not currently outline standard
operating procedures specifically for Evidence Custodians. In addition,
some Evidence Custodian positions in smaller offices have frequent
turnover, and an Evidence Custodian Handbook would provide greater
uniformity in evidence handling. Fourth, the DEA should provide
comprehensive training for Evidence Custodians because given the lack of
available formal training, several DEA field divisions have developed their
own written guidance and training for Evidence Custodians. This results in
Evidence Custodian guidance and training that vary in quality and
uniformity throughout the DEA. In contrast, the Federal Bureau of
Investigation (FBI) provides all of its Evidence Custodians with a booklet
regarding pertinent evidence handling sections from its Manual of
Administrative Procedures, and mandatory in-service training for one week.

RECOMMENDATIONS

      We are making two recommendations to help the DEA improve
custodial accountability over seized drugs and monies. We recommend that
the DEA:

       1. Implement the Office of Inspections’ four remaining evidence
          program recommendations by:

              a. Developing an Evidence Custodian Handbook,

              b. Requiring Evidence Custodians to use pre-printed
                 logbooks,

              c. Identifying and designating a DEA employee with
                 evidence custodian expertise to serve as the
                 point-of-contact for all Evidence Custodians, and

              d. Developing a comprehensive training program for
                 personnel assigned Evidence Custodians duties.

       2. Verify during field inspections that Evidence Custodians have an
          Evidence Custodian Handbook, use pre-printed logbooks, know


U.S. Department of Justice                                               vi
Office of the Inspector General
Evaluation and Inspections Division
          the point-of-contact for evidence issues, and attend appropriate
          Evidence Custodian training.




U.S. Department of Justice                                              vii
Office of the Inspector General
Evaluation and Inspections Division
                                  TABLE OF CONTENTS


INTRODUCTION ....................................................................................1

        Background ..................................................................................1
        Purpose and Methodology .............................................................6

RESULTS OF THE REVIEW...................................................................8

        The DEA Has Not Corrected its Custodial Accountability
         Problems......................................................................................8
            Four of Six Recommendations Not Implemented.....................8
            Custodial Accountability Problems Persist............................13
            Recommendations From 2001 Remain Valid ........................16

CONCLUSIONS AND RECOMMENDATIONS ........................................21


APPENDIX        I:     Office of Inspections’ Recommendations ......................23
APPENDIX        II:    OIG Survey Instrument...............................................25
APPENDIX        III:   The DEA’s Response ...................................................28
APPENDIX        IV:    The OIG’S Analysis of the DEA’s Response ..................32




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                    BACKGROUND


THE DEA’s MISSION

       The DEA enforces federal laws for controlled substances by
investigating those individuals involved in the growing, manufacture, or
distribution of controlled substances appearing in or destined for the United
States.6 In the course of its duties, the DEA often seizes, stores, processes,
and disposes of evidence that is used for federal prosecutions. The DEA
relies on Evidence Custodians in its field divisions to receive, safeguard,
track, and dispose of several categories of evidence and account for evidence
completely, accurately, and promptly.7 By doing so, Evidence Custodians
preserve the chain-of-custody and help protect evidence against the risk of
theft, misuse, or loss. According to the International Association of Chiefs
of Police, the evidence control function performed by Evidence Custodians
has become a relatively complex management task that requires a good
working knowledge of contemporary practices in the field, the ability to deal
effectively with law enforcement personnel and the courts, and knowledge of
federal law governing the handling and disposition of evidence.

       Every three years, the Office of Inspections inspects each DEA field
division and evaluates 11 program areas, one of which is evidence, to
determine field compliance with statutes, regulations, policies, and
procedures.8 If the Office of Inspections finds a deficiency in a program
area, it issues to the field division a Recommendation, a Schedule of Finding
(SOF), or a Significant Deficiency (SD), which the field division is required to
correct. A Recommendation is issued when a minor deficiency has been
identified that requires attention or corrective action. A SOF is more
serious, and is issued when the Office of Inspections finds one or more of
the following factors affecting a program area:



       6   Title 21 USC, Chapter 13, Sections 801-971.

       7Field division Evidence Custodians receive, safeguard, track, and dispose of drug
evidence (prior to its transfer to a DEA forensic laboratory), bulk marijuana, non-drug
evidence, and seized monies.

       8  During the intervening years, each field division reviews five program areas
(evidence, enforcement management, enforcement effectiveness, financial management, and
the confidential source programs), reports to the Office of Inspections any deficiencies, and
certifies that they have been corrected.



U.S. Department of Justice                                                             1
Office of the Inspector General
Evaluation and Inspections Division
       1. The program area or individuals are not functioning in
          accordance with established guidelines, policies, and
          procedures,

       2. The quality or condition of a program has been identified
          as deficient, or

       3. The deficiencies are adversely affecting the efficiency or
          effectiveness of an inspected entity.

A SD is issued when a serious and pervasive problem is identified as
interfering with the stated function or mission of the inspected entity, or
when there is a flagrant violation of governing statues, policies, rules, or
regulations negatively affecting a program area or office.9

      When a field division receives either a SOF or SD, the Special Agent in
Charge (SAC) must correct the deficiency within 60 days after the inspection
is completed. The SAC also must provide the Office of Inspections with a
written status of actions taken or initiated to correct the deficiencies. If the
SAC does not take corrective action, the Office of Inspections will inform the
DEA’s Board of Professional Conduct and the Deputy Administrator, who
take appropriate action.

PREVIOUS REPORTS ON DEA CUSTODIAL ACCOUNTABILITY

       The GAO identified custodial accountability problems with drug
evidence in 1999. In November 1999, the GAO identified weaknesses in
the DEA’s accountability over drug evidence that increase the potential for
theft, misuse, or loss of such evidence. The GAO noted that the division
offices and laboratories had policies and procedures to ensure
accountability over drug evidence, but did not always follow them. During
site visits, the GAO found:

       •     Incomplete and missing documentation over drug
             evidence, including chain-of-custody documentation;

       •     Weaknesses in recordkeeping of drug and weapon
             evidence; and




       9   DEA Planning and Inspections Manual Section 8214.1 - 8214.4.



U.S. Department of Justice                                                     2
Office of the Inspector General
Evaluation and Inspections Division
         •     Weaknesses in accounting for drug weights, including
               unverified and unexplained weight differences in drug
               exhibits.

      The GAO also found that DEA’s internal inspection teams reported
errors and inaccuracies in recordkeeping during inspections from March
1996 through August 1998. Although DEA officials were always able to
locate selected drug evidence for review, GAO reported that the evidence
weaknesses were systemic and that DEA’s redundant controls were unable
to ensure the integrity of evidence at all times. The GAO recommended that
the DEA Administrator reinforce DEA’s adherence to existing DEA policies
regarding evidence, and modify existing DEA policy for the forms used to
account for bulk marijuana and the process for weighing drugs prior to
submission to the DEA forensic laboratories. According to the GAO, the
DEA agreed to the recommendations and implemented them.

       The Office of Inspections identified recurring custodial
accountability problems in 2001. In June 2001, the DEA Administrator
directed the Office of Inspections to review DEA’s custodial accountability
for five categories of evidence. The Office of Inspections reviewed its own
inspection reports from 1999 through 2000 for all 21 domestic field
divisions, and found that 13 of the 21 field divisions (62 percent) received a
SOF for infractions involving drug evidence, including improper processing
of exhibits, improper maintenance of logbooks, non-compliance with proper
destruction procedures, commingling of drug and non-drug evidence, and
improper temporary and long-term drug storage.10 The Office of Inspections
also found that 10 of the 21 field divisions (48 percent) received a SOF
related to seized and recovered monies, including non-compliance in
conducting quarterly inventories, improper maintenance of logbooks, lack of
a Seized and Recovered Monies Custodian, improper storage or maintenance
of monies, lack of proper or timely transfer of seized monies to the
U.S. Marshals Service, and seized monies not processed by appropriate
personnel.

       After surveying DEA Evidence Custodians, the Office of Inspections
identified five underlying causes for the custodial accountability problems.

         1. Overall Staffing. The Office of Inspections determined that the
            DEA did not have enough full-time Evidence Custodians, and that
            Evidence Custodians were often overwhelmed with other collateral

         10   At the time, the Office of Inspections inspected all 21 field divisions on a two-year
cycle.



U.S. Department of Justice                                                                    3
Office of the Inspector General
Evaluation and Inspections Division
          duties such as fleet management. As a result, the DEA used
          Special Agents to perform on a part-time basis almost all of DEA’s
          evidence custodial duties, which is an administrative rather than
          an enforcement duty. Respondents to the Office of Inspections’
          survey, comprising both Special Agents and non-agent Evidence
          Custodians, reported the following amounts of time spent on
          evidence duties per week:

          •   From a few hours per week to as many as 60 hours per week
              spent processing drug and bulk drug evidence.

          •   From a few hours per week to as many as 40 hours per week
              spent processing seized cash evidence.

          Based on these estimates, the Office of Inspections concluded that
          the DEA used a significant amount of Special Agent time on
          custodial duties rather than on case investigations.

       2. Southwest Border Staffing. The Office of Inspections found that
          Special Agents assigned to collateral Evidence Custodian duties
          along the Southwest Border spent more than half their time
          processing evidence, and at some field offices evidence handling
          had become a full-time responsibility. The Office of Inspections
          concluded that these offices should hire full-time non-agent
          Evidence Custodians to process the massive volume of evidence
          seized, usually bulk marijuana, and return Special Agents to
          enforcement duties.

       3. Guidance. The Office of Inspections found that Evidence
          Custodians did not complete logbooks accurately because they
          were unclear about their responsibilities. The Office of Inspections
          also noted the lack of standardization in evidence handling
          procedures, and insufficient Evidence Custodian guidance
          provided in the Special Agents Manual. The Office of Inspections
          concluded that the DEA needed to obtain pre-printed logbooks for
          Evidence Custodians, and clarify certain policies and procedures,
          especially evidence handling requirements for Evidence
          Custodians.

       4. DEA Headquarters Support. The Office of Inspections found that
          the DEA did not designate a primary evidence program expert at
          DEA Headquarters to provide uniform guidance to Evidence



U.S. Department of Justice                                                4
Office of the Inspector General
Evaluation and Inspections Division
          Custodians. As a result, Evidence Custodians called different
          offices at Headquarters to find answers to their questions.

       5. Training. The Office of Inspections reported that 39 percent of
          survey respondents in charge of drug evidence and 45 percent of
          survey respondents in charge of seized money had received no
          formal training. Most incoming Evidence Custodians received
          informal training from outgoing Evidence Custodians.

       The Office of Inspections concluded that problems with custodial
accountability at field offices would continue until DEA Headquarters
addressed the overall issues of staffing, training, and guidance. In February
2001, the Office of Inspections made six recommendations to improve DEA’s
custodial accountability for evidence (Appendix 1). On June 11, 2001, the
DEA Administrator signed the report that directed the Office of Resource
Management (FR), the Office of Operations Management (OM), and the
Office of Training (TR) to implement the recommendations.




U.S. Department of Justice                                                5
Office of the Inspector General
Evaluation and Inspections Division
                     PURPOSE AND METHODOLOGY


PURPOSE

       We conducted this review to examine the DEA’s progress in correcting
its custodial accountability problems at its field divisions. We focused on
DEA’s progress in implementing the six recommendations related to
custodial accountability for drug evidence and seized monies made in the
DEA Office of Inspections’ Review of Custodial Accountability for: Drug
Evidence, Non-Drug Evidence, Seized Monies, Recovered Monies, and
Technical Equipment, February 2001. We examined accountability for seized
drugs and monies because their value increases the risk of theft, misuse,
and loss.

METHODOLOGY

       Interviews. We conducted in-person and telephone interviews with
personnel from the DEA’s Office of Domestic Operations (DO), Office of
Inspections, Office of Operations Management (OM), Office of Professional
Responsibility (OPR), Office of Resource Management (FR), Office of Training
(TR), Executive Policy and Strategic Planning Staff, Board of Professional
Conduct, Disciplinary and Deciding Officials, and the San Diego Field
Division. We also interviewed the current DEA Administrator, Evidence
Custodians, the Program Manager for Evidence at the FBI, and officials from
the Executive Office for United States Attorneys.

      San Diego Field Division. Based on documentation provided by DEA
Headquarters, we selected one field division office with a large volume of
drug seizure activity. Within that field division, we visited all four DEA
resident offices and the DEA’s Southwest Laboratory.

       Office of Inspections’ Reports. We reviewed 13 internal inspection
reports from June 2001 through January 2003. We did not review
inspection reports for DEA foreign offices. We selected June 2001 as the
starting date because this is when the DEA Administrator approved the
Office of Inspections’ recommendations.

       Office of Professional Responsibility Cases. We examined Office of
Professional Responsibility (OPR) case investigations categorized as the
“Loss or Theft of Drug Evidence” or “Theft of Defendant’s Property/Funds”
from June 2001 through September 2002 to identify whether the loss or
theft was due to situations beyond the DEA’s control (e.g. lost by another

U.S. Department of Justice
Office of the Inspector General                                       6
Evaluation and Inspections Division
agency participating in the investigation), and, if not, whether the theft or
loss of drugs or monies was substantiated.11 We excluded all cases from
FY 2003 because disciplinary action was still pending for some of those
cases.

       OIG Survey of AUSAs. We surveyed 422 AUSAs that handle
prosecutions related to seized drugs and monies in the 94 U.S. judicial
districts. We asked the AUSAs to provide their views on the integrity of the
DEA’s chain-of-custody for seized drugs and monies. Of the 422 surveys
sent, we received 120 responses from AUSAs in 77 of the 94 judicial
districts. A copy of the survey instrument is included in Appendix II.

      Additional Research. We reviewed the DEA’s Special Agents Manual
(FY 2003), training guides and lesson plans from the DEA Academy,
Division Orders, staffing data, budget data requests for FY 2000 through
FY 2004, and enforcement operations data for FY 2000 through FY 2003.
We also reviewed two OIG reports entitled Office of Inspections in the DEA
(August 1992) and Review of the DEA Self-Inspection Program (March 1996),
GAO reports, and congressional testimony.




       11 Because the OIG is conducting an audit of the DEA’s forensic laboratories that
includes evidence handling, we did not consider cases that occurred at the laboratories.

U.S. Department of Justice
Office of the Inspector General                                                      7
Evaluation and Inspections Division
                         RESULTS OF THE REVIEW


THE DEA HAS NOT CORRECTED ITS CUSTODIAL ACCOUNTABILITY
PROBLEMS AT THE FIELD DIVISIONS

       We found that DEA management failed to implement
       most of the recommendations from its 2001 internal
       review of custodial accountability.     DEA’s internal
       inspections of field divisions continue to identify
       custodial accountability problems for seized drugs and
       monies. Our interviews with Evidence Custodians and
       examination of custodial guidance and training
       demonstrate that the DEA’s recommendations remain
       valid, and their implementation would improve custodial
       accountability at the field divisions.

       Four of Six Recommendations Have Not Been Implemented. We
found that the DEA did not implement four of the six recommendations for
solving the field divisions’ custodial accountability problems identified by
the Office of Inspections in 2001. The DEA has not produced an Evidence
Custodian Handbook, required the field to obtain and use pre-printed
logbooks, identified an evidence program expert at the DEA Headquarters,
or developed a comprehensive training program for Evidence Custodians.
When we asked why the DEA did not implement these recommendations, an
Office of Inspections official who worked on the 2001 review stated that the
DEA distributed the report to its Executive staff but it was never distributed
to the appropriate offices for action. According to the official, the DEA
Administrator who requested the review left the agency shortly after
approving the final report and recommendations, and DEA management did
not ensure that the recommendations were implemented. When we
contacted OM and TR officials, they told us that they were unaware of the
Office of Inspections report, its recommendations, and their responsibility
for implementing specific recommendations tasked to their respective
offices.

      Below are the Office of Inspections’ recommendations from the 2001
report, and our analysis of the implementation status.

       DEA Recommendation 1:          The Office of Resource
       Management should conduct a workload analysis related to
       the custodial duties. It should specifically address the


U.S. Department of Justice
Office of the Inspector General                                         8
Evaluation and Inspections Division
       workload issues of the division office custodians and the
       collateral duties of the Special Agents.

       DEA Recommendation 2:           The Office of Resource
       Management should conduct a workload analysis, assessing
       the duties for handling evidence in the Southwest Border
       resident offices.

       The DEA Completed Two Workload Studies. In response to
Recommendations 1 and 2, the Office of Resource Management (FR)
conducted two workload studies. The first study, completed in November
2001, showed that the DEA could add 16 additional full-time Evidence
Custodians at 25 Southwest Border offices. The DEA Chief Financial
Officer, in consultation with the FR, analyzed the workload data and
requested congressional authorization for nine new Evidence Custodian
positions at selected Southwest Border offices. On February 13, 2003, the
DEA Administrator authorized changes to the DEA Table of Organization to
included nine additional Evidence Custodian positions along the Southwest
Border. DEA filled six of the nine new Evidence Custodian positions by
transferring personnel from other DEA offices or reclassifying existing
positions. As of August 2003, the DEA had not filled the remaining three
Evidence Custodian positions.

       In FY 2002, the DEA conducted a second workload study consisting of
a field division survey and an analysis of investigative work hours to
determine the amount of time Special Agents spent on administrative
duties. The study found that:

       Special Agents’ work hours devoted to non-investigative
       work, such as technical operations, inventory management,
       evidence management, security, program coordination, etc.
       equaled 190 Full-time Equivalents (FTE)…. In summary, the
       DEA is currently incurring excessive personnel costs
       because senior Special Agents are sometimes performing
       collateral duties that could be effectively handled by a
       Professional/Administrative or Technical/Clerical position
       costing 60 percent less than a senior Special Agent.

Of the 190 FTE devoted to non-investigative work, approximately 39 FTE
were for processing evidence. The DEA used the second workload study to
support its FY 2004 congressional budget request for 85 new
“administrative support [positions] to improve the utilization of its current
[Special Agent] resources.” If the budget request is approved, the DEA


U.S. Department of Justice
Office of the Inspector General                                          9
Evaluation and Inspections Division
estimates that approximately 80 Special Agent FTE currently spent on
administrative duties will be reallocated to investigative duties.

       DEA Recommendation 3:           The Office of Operations
       Management should produce an Evidence Custodian
       Handbook for the use of personnel assigned custodial duties
       in the program areas of drug evidence, bulk drug evidence,
       non-drug evidence, seized monies, and recovered monies.

       We found that as of November 2003, the OM had not produced an
Evidence Custodian Handbook and officials said they had no plans to do so.
Evidence Custodians told us that they discussed with DEA Headquarters
staff the need to develop an Evidence Custodian Handbook specific to their
duties and responsibilities at an Evidence Custodian Conference held in
April 2003. However, they did not know if a handbook was ever developed.

      When we asked OM officials why they do not plan to develop an
Evidence Custodian Handbook, they told us that a handbook was not
necessary for four reasons:

       1. The Special Agents Manual guidance is adequate and OM
          plans to update the evidence handling sections in FY 2004,

       2. OM already developed an operating manual for Evidence
          Custodians that use the Enhanced Non-Drug Evidence Data
          System (ENEDS),

       3. Shortcomings in evidence handling are caused by poor
          compliance with the policies and procedures outlined in the
          Special Agents Manual,

       4. Creating an Evidence Custodian Handbook could increase
          noncompliance by having two sets of policy and procedures
          in the field. It could also create difficulties for Special Agents
          in court when they testify about how they processed
          evidence.

      We considered OM’s four reasons and determined that Evidence
Custodians need a handbook. Evidence Custodians told us that they need
standard operating procedures and information that is specific to their
duties because neither the Special Agents Manual guidance nor the ENEDS
operating manual answers all their questions about evidence handling,
storage, and disposal. By answering Evidence Custodian’s questions about


U.S. Department of Justice
Office of the Inspector General                                                10
Evaluation and Inspections Division
evidence handling, storage, and disposal in an Evidence Custodian
Handbook, the DEA can improve their compliance with evidence handling
policies and procedures.

      The reasoning regarding conflicting sets of policy and procedures is
similarly flawed. A handbook for Evidence Custodians will eliminate the
need for individual field divisions to issue their own Division Orders
providing supplemental guidance to their Evidence Custodians on how to
receive, safeguard, track, and dispose of evidence. Finally, an Evidence
Custodian Handbook will not create difficulties for Special Agents because
they need not receive a copy, or, if it is available on the Intranet, have
access to it, unless they are assigned Evidence Custodian duties.

       DEA Recommendation 4: Field division offices should
       obtain pre-printed logbooks for all field division offices to
       ensure standardization, proper evidence accountability, and
       compliance with audit requirements.

       We found that not all field division offices have obtained and use
pre-printed logbooks to ensure standardization, proper evidence
accountability, and compliance with audit requirements. For instance, at
the DEA San Diego Field Division, only one of the four Evidence Custodians
we met had and used a pre-printed logbook. In another field division, an
Evidence Custodian told us that she has pre-printed logbooks, but that the
Office of Inspections changed the column titles, and, in order to comply with
the new requirements, she now uses both pre-printed and handwritten
logbooks.

       Until the Special Agents Manual is revised to require the use of pre-
printed logbooks, and Evidence Custodians use them consistently, the DEA
will continue to have problems with logbook standardization and
noncompliance with audit requirements for evidence. Since logbook
standardization helps ensure that all Evidence Custodians complete the
same required information when receiving, checking out, and disposing of
evidence, it is one way to improve custodial accountability, which, in turn,
decreases the risk that evidence can be stolen, misused, or lost.12

       DEA Recommendation 5: The DEA should identify a single
       point-of-contact (expert on drug/bulk drug, and non-drug
       evidence, including seized monies and Official Advance


       12   OM officials informed us that ENEDS will replace paper logbooks, possibly in
FY 2005.

U.S. Department of Justice
Office of the Inspector General                                                       11
Evaluation and Inspections Division
       Funds) at DEA Headquarters to respond to inquiries
       regarding evidence.

       We found that OM has not met the intent of this recommendation.
OM officials originally told us that they identified a staff coordinator as the
point-of-contact for Evidence Custodians. Later, OM officials modified their
response and stated that Evidence Custodians call the main OM telephone
number and are redirected to any one of several staff members. By not
identifying a single Headquarters point-of-contact for evidence, the DEA
cannot effectively manage and coordinate inquiries from the field, or ensure
it provides uniform guidance to Evidence Custodians, tracks questions, and
identifies common trends for future policy updates. One Evidence
Custodian told us that she does not call OM because its staff answers
questions based on how Special Agents should process evidence, but not
necessarily on how Evidence Custodians should handle the evidence in their
custody. Another Evidence Custodian told us that “no one stays in policy
[OM] long enough to become experts” and therefore the DEA does not have
an “evidence guru.” Almost all of the Evidence Custodians we interviewed
identified Evidence Custodians in other field divisions as the experts they
consult to answer their questions regarding evidence. As a consequence,
Evidence Custodians receive guidance from other Evidence Custodians that
may or may not be correct.

       DEA Recommendation 6:              The Office of Training, in
       conjunction with the Office of Operations Management,
       should develop a comprehensive training program for
       personnel assigned custodial duties. Specifically, training for
       all Evidence Custodians should be scheduled within three
       months of assignment, and conducted in a formal training
       setting at the field division or DEA Headquarters.

       We found that TR has not developed a comprehensive training
program for Evidence Custodians. Officials from TR asserted that the DEA
does not need a training program because Special Agents receive six hours
of evidence training at the DEA Academy, reinforced by practical exercises,
which is sufficient for performing custodial duties. According to officials
from OM, non-agent Evidence Custodians do not require comprehensive
training because they receive formal training on how to operate ENEDS.

       We examined these two views and found that a comprehensive
training program for Evidence Custodians is still needed for four reasons.
First, DEA’s evidence training at the Academy focuses only on the collection,
assembly, packaging, and transportation of evidence collected in the field to


U.S. Department of Justice
Office of the Inspector General                                          12
Evaluation and Inspections Division
the evidence room. Academy training does not cover processing and
maintaining custody of evidence once it is submitted to the Evidence
Custodian. Second, Evidence Custodians told us that although ENEDS
training was very good, they would benefit from formal Evidence Custodian
training covering custodial duties and responsibilities. Third, DEA officials
in the field told us that Special Agent and non-agent Evidence Custodians
are often inexperienced, and fourth, they also told us that Evidence
Custodian turnover in some offices is frequent, especially for Special Agents,
which increases the likelihood of mistakes in evidence handling.

       Custodial Accountability Problems Persist in the DEA’s Evidence
Program. To determine the current state of the evidence program, we
examined reports from DEA internal inspections conducted at 13 field
divisions from June 2001 through January 2003 and found that the field
divisions continued to have problems with evidence accountability. Our
analysis showed that more than half of the DEA’s field divisions were cited for
evidence program deficiencies related to drugs and monies. We found that
the deficiencies existed in field divisions of every size. These problems persist
despite annual field division reviews of its evidence program using Office of
Inspections’ checklists, despite each Division’s certification that deficiencies
were corrected, and despite the use of ENEDS by all field divisions.

       The Office of Inspections cited 8 of the 13 field divisions (62 percent)
for drug evidence infractions including improperly processed exhibits;
problems with the forms that track the acquisition, transfer, and
destruction of drugs; discrepancies in the seizure, submission, and
reporting of drug and non-drug evidence; no logbooks or improperly
maintained logs; improper temporary drug storage; and no annual inventory
or failure to reconcile inventory discrepancies. Below are two recent
examples of custodial accountability deficiencies for seized drugs identified
by the Office of Inspections since June 2001.

       •   In Denver, Colorado, members of a task force group routinely
           maintained unprocessed drug and non-drug evidence for one to
           two days in their respective hotel rooms while working on a
           temporary duty assignment. DEA policy strictly prohibits
           maintaining drug evidence in unsecured locations even on
           temporary duty (January 2002).

       •   In Des Moines, Iowa, the Resident Office lacked a facility or safe
           dedicated to the temporary storage of drug evidence and did not
           maintain a current logbook. In addition, the Drug Evidence
           Custodian inappropriately recorded bulk marijuana, drug


U.S. Department of Justice
Office of the Inspector General                                            13
Evaluation and Inspections Division
           evidence, and seized monies in the same bound ledger, contrary to
           DEA policy (September 2002).

       Three of the 13 field divisions (23 percent) received SOFs related to
seized monies. The most serious infraction was the use of non-DEA
employees as custodians. Other infractions were Seized and Recovered
Monies Custodians improperly processing seized monies, no logbooks or
improperly maintained logbooks, commingling of seized monies with
recovered monies; improper storage or maintenance of monies; and no
required audits of monies. Although the rate of cash-related deficiencies
was lower than the 48 percent rate reported by the DEA in 2001, the
reported deficiencies remain serious. Below are two recent examples of
custodial accountability deficiencies for seized monies identified by the
Office of Inspections since June 2001.

       •   At the Savannah, Georgia, Resident Office, the Seized and
           Recovered Monies Custodian was not receiving the seized monies
           checks. Instead, the Special Agents transported seized monies to
           the bank for conversion to a cashier’s check and transferred the
           check to a contract employee. The contract employee mailed the
           check to the U.S. Marshals Service (October 2002).

       •   In Charleston, South Carolina, office staff could not locate any
           previous logbooks for the Office of Inspections. In violation of DEA
           policy, the Seized and Recovered Monies Custodian was a contract
           employee and did not maintain a bound ledger. Instead, the
           custodian recorded entries in an Excel spreadsheet (October 2002).

      We also found that the Office of Inspections continues to find
improperly maintained logbooks. In 5 of the 13 field divisions
(38 percent), logbooks for seized drugs or monies were either maintained
improperly or not maintained at all. For example:

       At the Cheyenne, Wyoming, Resident Office, Evidence Custodians
       were commingling drug and non-drug evidence in the same logbook.
       Also, the temporary logbook did not document the transfer of evidence
       into or out of the custody of the Evidence Custodian (October 2002).

      The DEA imposed discipline in five cases for the loss of seized drugs
or monies since June 2001. In 1999, the GAO reported that DEA evidence
accountability weaknesses increase the potential for theft, misuse, or loss of
such evidence and could compromise it for federal prosecutions. The DEA
responded to the GAO and stated that it maintains the integrity of evidence


U.S. Department of Justice
Office of the Inspector General                                           14
Evaluation and Inspections Division
at all times through a series of redundant controls which ensure that
shortcomings in one control will not result in an accountability problem. As
an example of its redundant controls, the DEA stated that Evidence
Custodians record the transfer of evidence on several different forms, thus
ensuring that recordkeeping errors can be resolved by comparing forms.

       We examined all OPR investigative files involving allegations of lost
drugs or monies in DEA custody since June 2001, and found that the DEA
imposed discipline in five cases involving accountability deficiencies leading
to the loss of seized drugs or monies.13 Below are two case examples.

       •    In 2001, a DEA laboratory’s annual inventory found that two drug
            exhibits were missing (29.2 grams and 1.1 grams of
            methamphetamine). A laboratory employee mailed the two drug
            exhibits to a Special Agent’s personal address for an upcoming trial
            without the proper authorization. The Special Agent retained the
            exhibits in his Official Government Vehicle at the airport during an
            out-of-town trip, and later placed the exhibits in his desk. Four
            months later, the DEA laboratory requested the return of the
            exhibits and the Special Agent could not find them.

       •    In 2002, the OPR investigated a cash seizure that had a $1,000
            discrepancy. A DEA Task Force Officer accepted a large cash
            seizure from a local police officer who had made a traffic stop
            arrest. The DEA Task Force Officer placed the cash in a self-
            sealing evidence bag on the scene and followed DEA policy by not
            counting the cash. However, the Task Force Officer issued a
            receipt to the local police officer for a specific amount, rather than
            an “undetermined amount of U.S. currency” per DEA policy. Later,
            the Task Force Officer transported the sealed cash evidence to the
            bank alone, also in violation of DEA policy.

       The DEA’s accountability problems do not appear to have impacted
ongoing prosecutions. To examine whether the DEA’s continuing custodial
accountability problems have compromised evidence for federal
prosecutions, we surveyed 422 AUSAs responsible for prosecuting federal
drug and asset forfeiture cases. We received responses from 120 AUSAs in
77 of the 94 judicial districts. All AUSAs reported they believed that the

       13 OPR categorizes the allegations as “Loss or Theft of Drug Evidence” and “Loss or
Theft of Defendant’s Property/Funds.” We eliminated cases in which the loss or theft drugs
or monies was beyond the DEA’s control, and the allegation was not substantiated by the
OPR’s investigation and the DEA disciplinary process.


U.S. Department of Justice
Office of the Inspector General                                                    15
Evaluation and Inspections Division
DEA safeguards the integrity of seized drugs and monies, and none of the
AUSAs identified a case in which the integrity of the DEA’s custodial
accountability had resulted in the failure of the prosecution. However, some
of the AUSAs reported that they had identified one or more cases in which
they had problems with DEA recordkeeping. Specifically, 12 percent of the
AUSAs cited problems with seized drugs, mainly for inaccurate and
incomplete recordkeeping and 5 percent reported problems in cases
involving seized monies, mainly for inaccurate recordkeeping. We followed
up by interviewing five AUSAs that reported problems with DEA’s custodial
accountability and found that the incidents were minor and correctable.

       Office of Inspections’ Recommendations Remain Valid. Because
two years have passed since the DEA Administrator approved the Office of
Inspections’ recommendations, we evaluated whether the DEA should
implement the remaining four recommendations. We concluded that the
original recommendations are still valid. First, the DEA should ensure that
all Evidence Custodians have pre-printed logbooks because the Office of
Inspections continues to find problems with logbooks during field
inspections. Using pre-printed logbooks would help resolve some of the
problems identified by the Office of Inspections by ensuring that all
Evidence Custodians use the same data fields to track evidence in their
custody. Second, the DEA should appoint an expert point-of-contact for
evidence to respond to inquiries regarding evidence. Evidence Custodians
seek assistance from other Evidence Custodians because they have
experience and expertise that OM does not have for interpreting guidance in
the Special Agents Manual. As a consequence, Evidence Custodians receive
guidance from other Evidence Custodians that may or may not be correct,
and DEA Headquarters does not have the opportunity to provide uniform
guidance, track questions, and identify common trends to improve DEA
evidence handling policies in the Special Agents Manual.

       Third, the DEA should develop a handbook for Evidence Custodians
because the Special Agents Manual does not outline standard operating
procedures specifically for Evidence Custodians. In addition, some Evidence
Custodian positions in smaller offices have frequent turnover, and an
Evidence Custodian Handbook would provide greater uniformity in evidence
handling. Fourth, the DEA should provide comprehensive training for
Evidence Custodians because given the lack of available formal training,
several DEA field divisions have developed their own written guidance and
training for Evidence Custodians. This results in Evidence Custodian
guidance and training that vary in quality and uniformity throughout the
DEA. In contrast, the FBI provides all of its Evidence Custodians with a
booklet regarding pertinent evidence handling sections from its Manual of


U.S. Department of Justice
Office of the Inspector General                                       16
Evaluation and Inspections Division
Administrative Procedures, and mandatory in-service training for one week.
The FBI also ensures that alternate Evidence Custodians receive training, as
well as Evidence Custodian supervisors.

       Evidence Custodian feedback on guidance and training. During our
interviews, we asked Evidence Custodians (Special Agents and non-agents)
to rank the evidence handling guidance found in the Special Agents Manual
using a 1 to 5 scale, with 1 being poor and 5 being superior. The average
rank was 3. Evidence Custodians told us that the Special Agents Manual
was not specific or clear enough for them to perform their duties, and
several items needed clarification. Several Evidence Custodians stated that
an Evidence Custodian Handbook would be valuable for three reasons:

       1. The Special Agents Manual is designed to instruct Special Agents
          how to process evidence into custody. It does not clearly instruct
          Evidence Custodians on how to receive, safeguard, track, and
          dispose of evidence and account for evidence completely,
          accurately, and promptly.

       2. Some Evidence Custodian positions in smaller offices have
          frequent turnover, and sometimes inexperienced personnel without
          even informal training are assigned to fill the position.

       3. An Evidence Custodian Handbook would provide greater
          uniformity in evidence handling.

       Evidence Custodians suggested that the DEA create a handbook
covering standard operating procedures for their position, describing
important “do’s and don’ts” when maintaining custody of evidence, listing
common errors made by Evidence Custodians, and providing examples of
DEA forms with errors made by Special Agents or Task Force Officers. In
one field division, an Evidence Custodian told us that her office created its
own handbook to address these issues.

       With regard to training, several of the Evidence Custodians, both
newly hired and long-term employees, said that they would have benefited
from formal Evidence Custodian training covering their duties and
responsibilities. One Evidence Custodian told us that her training consisted
of on-the-job instruction from a student aide for one week. Another told us
that the extent of her training was receiving a copy of the Special Agents
Manual, while another reported that she was sent to another field division
for instruction. An Evidence Custodian with more than a decade of
experience stated that it did not make organizational sense for the DEA to


U.S. Department of Justice
Office of the Inspector General                                          17
Evaluation and Inspections Division
offer formal classroom training to administrative assistants but not to
Evidence Custodians who are responsible for maintaining custodial
accountability over evidence.

       Field division guidance and training efforts. We found that in the
absence of a standard Evidence Custodian Handbook, field divisions have
individually attempted to improve guidance and training for Evidence
Custodians, which has led to inconsistent evidence handling practices and
training. In the Atlanta and Seattle field divisions, for instance, SACs
provide Evidence Handling Division Orders to their Evidence Custodians to
help them perform their duties. These Division Orders offer much of the
information that Evidence Custodians told us was missing from the Special
Agents Manual. For example:

       •   The Atlanta, Georgia, field division issued three Division Orders
           that provide additional guidance for its Evidence Custodians.
           “Bulk Drug Evidence Procedures” provides guidance on
           inventorying, transferring, and destroying bulk drugs. “Monies
           Seized for Forfeiture-Non Evidentiary” instructs Evidence
           Custodians on the forms they must receive from the case agent or
           seizing agent for forfeiture and deadlines for processing custodial
           paperwork. This Order also provides a table listing the exact
           information required in the evidence logbook. “Handling of Seized
           and Recovered Monies and High Value Items” describes all of the
           necessary forms and steps that must be completed by the Evidence
           Custodian to process seized monies, especially if temporary storage
           is needed.

       •   The Seattle, Washington, field division issued two Division Orders
           that provide guidance to its Evidence Custodians. “Handling of
           Non-Drug Evidence” outlines how Evidence Custodians should
           handle forms, with a particular focus on required signatures,
           which forms to keep, and when and where to file them. “Handling
           of Non-Drug Evidence” also provides Evidence Custodians with the
           necessary information to perform their duties and ensure custodial
           accountability, and has a series of examples for Evidence
           Custodians to reference and follow.

      In the absence of an agency-wide comprehensive training program, we
found that field divisions ask their most experienced Evidence Custodians to
train new employees, both Special Agent and non-agent. For example, an
Evidence Custodian in San Diego told us that, although he had never
received formal training, he had independently developed an Evidence


U.S. Department of Justice
Office of the Inspector General                                           18
Evaluation and Inspections Division
Custodian training program. Another Evidence Custodian informed us that
he was invited by two divisions to train their Evidence Custodians and help
prepare them for a field inspection. Sometimes, field divisions will send
their new Evidence Custodians to another division for training by an
experienced Evidence Custodian. This practice results in Evidence
Custodian training that varies in quality and uniformity throughout the
DEA. For instance, an Office of Inspections team found that bulk marijuana
evidence was not being processed in compliance with DEA policies and
procedures, and had to train four Bulk Drug Evidence Custodians.

      Impact. In the absence of adequate guidance and training, DEA
Evidence Custodians sometimes violate important policies and procedures
designed to ensure the chain-of-custody for evidence. In one disciplinary
case we reviewed, the DEA identified the lack of a guidance and training for
Evidence Custodians as one reason for the loss of drug evidence.

       In 2001, a DEA Special Agent and a DEA Task Force Officer lost two
       grams of cocaine from the Houston Field Division. After receiving the
       cocaine from the U.S. Border Patrol, they put it into temporary
       storage at the Houston district office. Four days later, the Special
       Agent, who also was an alternate Evidence Custodian, retrieved the
       drug exhibit from the vault without logging it out, and gave the exhibit
       to the Task Force Officer without documenting the transfer. Both
       officers prepared the cocaine for shipment to the DEA laboratory by
       placing it in an open and unattended box at the resident office, along
       with other drug exhibits awaiting shipment to the DEA laboratory.
       The laboratory never received the cocaine. OPR concluded that the
       exhibit was lost because the Special Agent failed to log the evidence
       out of the vault, document the transfer of custody, and secure the
       box.

      As described in the OPR investigation, the Special Agent and Task
Force Officer lost the evidence because they were not familiar with Evidence
Custodian responsibilities and had not been trained thoroughly. The
Special Agent had served six months as an alternate Drug Evidence
Custodian, but had received only one day of informal instruction provided
by the primary Drug Evidence Custodian.14 This case demonstrates that by
improving the guidance and training offered to personnel charged with the
receipt, safeguarding, and tracking of evidence, DEA field divisions can

       14  In November 1999, the Office of Inspections cited the Houston Field Division for
its custodial accountability deficiencies. In 2001, custodial accountability deficiencies led
to the loss of drug evidence in the case listed above. In July 2002, the Office of Inspections
again cited the Houston field division for its custodial accountability deficiencies.

U.S. Department of Justice
Office of the Inspector General                                                        19
Evaluation and Inspections Division
improve their custodial accountability and compliance with DEA policies
and procedures.




U.S. Department of Justice
Office of the Inspector General                                      20
Evaluation and Inspections Division
                 CONCLUSIONS AND RECOMMENDATIONS


      Four years after the GAO reported that the DEA needed to strengthen
accountability for drug evidence, and two years after the DEA conducted its
own review and identified recurring deficiencies that contribute to custodial
accountability problems, we found that the Office of Inspections continues
to regularly report deficiencies in the DEA’s evidence program during its
internal inspections of field divisions. We also found that the DEA failed to
correct the deficiencies identified as contributing to custodial accountability
problems in the field because the DEA has not followed its own Office of
Inspections’ recommendations to create an Evidence Custodian Handbook,
ensure that pre-printed logbooks are used in all Divisions, increase
Headquarters support, and develop training to improve its evidence
program. Although these recommendations would help Evidence
Custodians preserve the chain-of-custody for evidence and help protect
evidence against the risk of theft, misuse, or loss, the DEA told us that
implementing these recommendations was not necessary.

        We believe that the DEA still needs to implement the Office of
Inspections’ recommendations from 2001. First, evidence problems persist.
Second, Evidence Custodians told us that an Evidence Custodian Handbook
and formal training would help them perform their duties. Third, some field
divisions have acted to improve guidance and training for their Evidence
Custodians, which has resulted in guidance and training that varies in
quality and uniformity throughout the DEA. Since Evidence Custodians are
critical to maintaining the chain-of-custody for evidence, DEA
Headquarters, not field divisions, should lead the effort to improve the
resources available to Evidence Custodians and ensure uniform standards.
By improving the resources offered to Evidence Custodians charged with
receiving, safeguarding, tracking, and disposing of evidence, the DEA would
reduce the potential for theft, misuse, or loss of seized drugs or monies.

RECOMMENDATIONS

      We are making two recommendations for the DEA to improve
custodial accountability over seized drugs and monies. We recommend that
the DEA:

       1. Implement the Office of Inspections’ four remaining
          recommendations by:

              a. Developing an Evidence Custodian Handbook,

U.S. Department of Justice
Office of the Inspector General                                           21
Evaluation and Inspections Division
              b. Requiring Evidence Custodians to use pre-printed
                 logbooks,

              c. Identifying and designating a DEA employee with
                 evidence custodian expertise to serve as the
                 point-of-contact for all Evidence Custodians, and

              d. Developing a comprehensive training program for
                 personnel assigned Evidence Custodians duties.

       2. Verify during field inspections that Evidence Custodians have an
          Evidence Custodian Handbook, use pre-printed logbooks, know
          the point-of-contact for evidence issues, and attend appropriate
          Evidence Custodian training.




U.S. Department of Justice
Office of the Inspector General                                        22
Evaluation and Inspections Division
          APPENDIX I: DEA OFFICE OF INSPECTIONS’
                    RECOMMENDATIONS


     The Office of Inspections made six recommendations to improve
the DEA’s custodial accountability for evidence. They were:

       Recommendation 1: The Office of Resource Management
       should conduct a workload/staffing analysis related to the
       custodial duties for handling evidence in the field division
       offices to include drug/bulk drug, non-drug evidence, seized
       monies and recovered monies held for evidence.             The
       analysis should specifically address the workload issues of
       the division office custodians and the collateral duties of the
       Special Agents.

       Recommendation 2: The Office of Resource Management
       should conduct a workload/staffing analysis, assessing the
       duties for handling evidence in the Southwest Border
       resident offices, specifically addressing the manpower issues
       and the need for full-time Evidence Custodians for handling
       bulk marijuana.

       Recommendation 3: The Office of Operations Management
       should produce an Evidence Custodian Handbook for the
       use of personnel assigned custodial duties in the program
       areas of drug evidence, bulk drug evidence, non-drug
       evidence, seized monies, and recovered monies.        The
       handbook should establish a comprehensive set of policies
       and standard operating procedures that ensure uniformity
       and assist the custodians with ensuring proper
       accountability.

       Recommendation 4: Field division offices should obtain
       pre-printed logbooks for all required logs to ensure
       standardization and proper evidence accountability and to
       meet audit requirements.

       Recommendation 5: The DEA should identify a single
       point-of-contact (expert on drug/bulk drug, and non-drug
       evidence, including seized monies and Official Advance
       Funds) at DEA Headquarters to respond to inquiries
       regarding evidence.

U.S. Department of Justice
Office of the Inspector General                                          23
Evaluation and Inspections Division
       Recommendation 6: The Office of Training, in conjunction
       with the Office of Operations Management, should develop a
       comprehensive training program for personnel assigned
       custodial duties in the program areas of drug evidence, bulk
       drug evidence, non-drug evidence, seized monies, and
       recovered monies. Formal training should be mandatory for
       all Evidence Custodians, scheduled within three months of
       assignment, and conducted in a formal training setting, the
       field division, or DEA Headquarters.




U.S. Department of Justice
Office of the Inspector General                                       24
Evaluation and Inspections Division
             APPENDIX II: OIG SURVEY INSTRUMENT


      The Office of the Inspector General (OIG), Evaluation and
Inspections Division is initiating a review of the accountability controls
used by the Drug Enforcement Administration (DEA) to protect seized
drugs and cash placed in DEA facilities for analysis and safekeeping.
The purpose of the review is to assess the adequacy of DEA controls for
the receipt, security, and final disposition of seized drugs and cash.

       This survey refers to chain-of-custody problems for drug evidence
and cash seized either during DEA-controlled investigations or submitted
into the DEA’s custody by other Federal, state, or local law enforcement
agencies. Please consider the following:

        •   DEA seized drug evidence handling from the initial point of
            seizure through any subsequent transfers in the DEA chain-of-
            custody.
        •   DEA seized cash chain-of-custody problems up to, but not
            including, asset forfeiture procedures.

Note: We are not reviewing seized drug evidence chain-of-custody
problems attributed to the DEA’s forensic laboratories’ chain-of-custody.


Please click on the appropriate response box (an “X” will appear) or click on the text box
area and then enter your text answer. Upon completion, forward the saved electronic file
containing your responses to
SURVEY.OIG-USA@USDOJ.GOV(Or select “OIG-USA” in the Department’s Microsoft
Outlook Address Book)


Name
Title
District
Phone

1) Do you believe that the DEA safeguards the integrity of the chain-of-custody for:

   a    Seized Drug Evidence?
                                      Yes           No



U.S. Department of Justice
Office of the Inspector General                                                        25
Evaluation and Inspections Division
       i)        Seized Bulk Amount Drug Evidence (e.g., bulk marijuana)?
                                         Yes             No

   b   Seized Cash Evidence?
                                         Yes             No
   c   Comments (Question # 1
       Above):

2) Have you encountered any of the following DEA chain-of-custody problems during
   Federal prosecutions for:

   a   Seized Drug Evidence?

       Incomplete Documentation                    Yes         No
       Inaccurate Record keeping                   Yes         No
       (e.g., weights or descriptions)
       Missing Records                             Yes         No
       Inadequate physical safeguards              Yes         No
       Inadequate storage facilities               Yes         No
       Theft                                       Yes         No
       Loss                                        Yes         No
       Inappropriate Destruction                   Yes         No
       Other                                       Yes         No

       i)        Seized Bulk Amount Drug Evidence (e.g., bulk marijuana)?

                 Incomplete Documentation                Yes        No
                 Inaccurate Record keeping               Yes        No
                 (e.g., weights or descriptions)
                 Missing Records                         Yes        No
                 Inadequate physical safeguards          Yes        No
                 Inadequate storage facilities Yes             No
                 Theft                             Yes         No
                 Loss                              Yes         No
                 Inappropriate Destruction         Yes         No
                 Other                             Yes         No
   b   Seized Cash Evidence?

       Incomplete Documentation                    Yes         No
       Inaccurate Record keeping                   Yes         No


U.S. Department of Justice
Office of the Inspector General                                               26
Evaluation and Inspections Division
       (e.g., counts)
       Missing Records                        Yes           No
       Inadequate physical safeguards         Yes           No
       Theft                          Yes            No
       Loss                           Yes            No
       Other                          Yes            No

   c   Comments (Question # 2
       Above):


3) Have your Federal prosecution(s) been adversely impacted due to DEA chain-of-
   custody problems involving:

   a   Seized Drug Evidence?
                                      Yes            No
       i)        Seized Bulk Drug Evidence (e.g., bulk marijuana)?
                                      Yes            No
   b   Seized Cash Evidence?
                                      Yes            No
   c   Comments                 (Question             #              3         Above):



4) Have criminal defense attorneys been successful in challenging the integrity of the
   DEA’s chain-of-custody in your prosecutions which featured:

   a   Seized Drug Evidence?
                                      Yes            No
       i)        Seized Bulk Drug Evidence (e.g., bulk marijuana)?
                                      Yes            No
   b   Seized Cash Evidence?
                                      Yes            No
   c   Comments                        (Question                     #               4
       Above):

5) Please identify any general concerns with, or suggestions to improve the DEA’s
   handling of seized drugs or seized cash.




U.S. Department of Justice
Office of the Inspector General                                                     27
Evaluation and Inspections Division
               APPENDIX III: THE DEA’S RESPONSE




U.S. Department of Justice
Office of the Inspector General                   28
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       29
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       30
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       31
Evaluation and Inspections Division
     APPENDIX IV: THE OIG’S ANALYSIS OF THE DEA’S
                      RESPONSE


       On December 19, 2003, the Office of the Inspector General (OIG)
sent a copy of the draft report to the Administrator for the Drug
Enforcement Administration (DEA) with a request for written comments.
The Administrator responded to us in a memorandum dated
January 9, 2004. The DEA concurred with all of the recommendations,
and agreed with the OIG that it could strengthen existing management
procedures for evidence in the custody of its field divisions. The DEA
also recognized that improving its custodial accountability will ensure
integrity of evidence used in federal prosecutions resulting from DEA
investigations. Our analysis of the DEA’s response follows.

RECOMMENDATIONS

Recommendation 1: Implement the DEA Office of Inspections’ four
remaining evidence program recommendations by:

       a. Developing an Evidence Custodian Handbook,

       b. Requiring Evidence Custodians to use pre-printed logbooks,

       c. Identifying and designating a DEA employee with evidence
          custodian expertise to serve as the point-of-contact for all
          Evidence Custodians, and

       d. Developing a comprehensive training program for personnel
          assigned Evidence Custodians duties.

       Status: Resolved – Open.

     Summary of DEA’s Response: The DEA concurred with the
recommendation and agreed to:

       a. Expand policy pertaining to the processing, storage, reporting
          and accounting of bulk drugs and non-drug evidence in the
          DEA Agents Manual to include more detailed instructions for
          Evidence Custodians, as well as field agents and task force
          officers. Establish an Operations Division website on DEA’s
          intranet website to include a frequently-asked-questions section


U.S. Department of Justice
Office of the Inspector General                                          32
Evaluation and Inspections Division
          where DEA personnel can get answers to questions pertaining
          to evidence processing, storage, and reporting;

       b. Update policy pertaining to logbooks to mandate the use of pre-
          printed logbooks, incorporate the policy in the DEA Agents
          Manual, and send a teletype to the field offices providing
          guidance on acquiring pre-printed logbooks;

       c. Issue a teletype to the field reaffirming that the Operations
          Management’s Policy and Procedures Section (OMM) is the
          headquarters office responsible for evidence handling questions
          and providing appropriate staff names and numbers, which also
          will be kept current on the Operations Division intranet
          website; and

       d. Develop a task list, learning objectives, lesson plans, and
          instructional materials for a new Evidence Custodian training
          program, and then pilot test the program with the appropriate
          assessments.

       OIG’s Analysis: We consider the recommendation resolved, but
will keep it open until the DEA provides us with a copy of the following
items:

       a. Expanded policy pertaining to the processing, storage, reporting
          and accounting of bulk drugs and non-drug evidence. Also, a
          copy of the Operations Division website and frequently asked
          questions section on the DEA’s intranet website;

       b. Updated policy mandating the use of pre-printed logbooks;

       c. The teletype to the field reaffirming OMM as the headquarters
          office responsible for evidence handling questions; and

       d. The task list, learning objectives, lesson plans, and
          instructional materials for the pilot Evidence Custodian training
          program.

Recommendation 2: Verify during field inspections that Evidence
Custodians have an Evidence Custodian Handbook, use pre-printed
logbooks, know the point-of-contact for evidence issues, and attend
appropriate Evidence Custodian training.



U.S. Department of Justice
Office of the Inspector General                                            33
Evaluation and Inspections Division
       Status: Resolved – Open.

       Summary of DEA’s Response: The DEA concurred with the
recommendation and stated that all DEA entities are required to
complete a division inspection annually. The DEA also requires that the
Office of Inspections review the annual inspection reports when it
conducts its On-Site Inspections every 36 months.

      OIG’s Analysis: We recognize that the DEA conducts annual
inspections and reviews the result of those inspections when it conducts
its On-Site Inspections every 36 months. We will keep the
recommendation open until the DEA provides us with a copy of updated
inspection guidance that verifies Evidence Custodians:

       a. Have expanded policy on the processing, storage, reporting, and
          accounting of bulk drugs and non-drug evidence,

       b. Use pre-printed logbooks,

       c. Have the appropriate staff names and numbers at OMM for
          evidence handling questions, and

       d. Attend appropriate Evidence Custodian training.




U.S. Department of Justice
Office of the Inspector General                                        34
Evaluation and Inspections Division
